                                                NATIONAL SCIENCE FOUNDAT-ION
                                                 OFFICE OF INSPECTGR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM
                                                                                    II


 Case Number: A12030020                                                                      Page 1 of 1
                                                                                    II


         Through our proactive review of plagiarism, we discovered a significant amokt of copied text in
         an NSF proposal 1 and opened this case. A more detailed review found that thbauthor of the
                                                                                     1




         source text was a collaborator on the proposal? Given the collaboration of th~ source author

                                                                                    I
         with the PI on this project, and the fact that no other copied text was discover!d within the
         proposal, this case is clnsed.

                                                                                         I




                                                                                                     )




          1
              [Redacted]
          2
              [Redacted]




NSF OIG Form 2 ( 11102)
